                                                                              Legal Services Corporation

?L LSC                                                                        Office of Inspector General




Inspector General
Jeffrey E. Schanz




        July 31, 2008


        Ms. Brenda Ford Harding
        Executive Director
        Neighborhood Legal Services Program
           of the District of Columbia
        680 Rhode Island Avenue, N.E.
        Washington, D.C. 20002


        Dear Ms. Harding:

        Enclosed is our final report on the results of our audit on Selected Internal
        Controls at Neighborhood Legal Services. We have reviewed your comments
        and actions taken with regard to the findings in our draft report, and believe they
        adequately address and resolve those issues. We therefore consider the
        findings closed. Your comments on the draft report are included as Appendix 1.

        We want to thank you and your staff for the cooperation and assistance you
        provided to us.

        Sincerely,




        Enclosure


        cc:    Legal Services Corporation
               Karen Sarjeant, Vice President
               Programs and Compliance



                                                                             3333 K Street, NW 3rd Floor
                                                                             Washington, DC 20007-3522
                                                                             Phone 202.295.1500 Fax 202.337.6616
                                                                             www.oig.lsc.gov
     LEGAL SERVICES CORPORATION
     OFFICE OF INSPECTOR GENERAL




                LSC
  REPORT ON SELECTED INTERNAL
          CONTROLS         -

   NEIGHBORHOOD LEGAL SERVICES
PROGRAM OF THE DISTRICT OF COLUMBIA

             RNO 309080



          Report No. AU08-01
               JULY 2008
                                     TABLE OF CONTENTS



INTRODUCTION..........................................................................................    1

BACKGROUND............................................................................................    I

OBJECTIVE ................................................................................................. I

SCOPE AND METHODOLOGY ................................................................... 1

OVERALL EVALUATION ............................................................................. 2

RESULTS OF AUDIT ...................................................................................3

    Supporting Documentationfor Payments...............................................- 3

    Internal Control Review of Selected Areas ..............................................
                                                                                          3

    Policy on Salary Advances ......................................................................3

    Additional Approval for Significant Dollar Value Purchases ....................4

    Independent Review and Approval of the Executive Director's
       Travel Vouchers .................................................................................4

    Documenting Adjustments to Accounting Transactions ..........................5
      Recommendation 1............................................................................
                                                                                               5

OFFICE OF INSPECTOR GENERAL EVALUATION OF
  GRANTEE MANAGEMENT COMMENTS .............................................5


GRANTEE MANAGEMENT COMMENTS.................................APPENDIX I
In November, 2007, management of the Legal Services Corporation (LSC)
referred to the Office of Inspector General (OIG), for follow-up, instances of
internal control weakness at certain LSC grantees identified in the Government
Accountability Office (GAO) Draft Report entitled, Legal Services Corporation -
Improved Internal Controls Needed in Grants Management and Oversight or
indentified in a November 13, 2007 meeting between GAO and LSC staff. The
final GAO report (GAO-08-37) was published on December 28,2007.

LSC management requested that the OIG assess whether the issues specifically
identified by GAO had been corrected at each of grantees referred to the OIG by
management.


                               BACKGROUND

GAO assessed whether LSC's internal controls over grants management and
oversight processes provide reasonable assurance that grant funds are used for
their intended purposes. GAO analyzed records and interviewed LSC officials to
obtain an understanding of LSC's internal control framework, including the
monitoring and oversight of grantees, and performed limited reviews of internal
controls and compliance at 14 grantees. GAO reported control weaknesses at 9
of the 14 grantee sites it visited. These weaknesses included using LSC grant
funds for expenditures with insufficient supporting documentation, for unusual
contractor arrangements, alcohol purchases, employee interest-free loans,
lobbying fees, late fees, and earnest money.


                                 OBJECTIVE

Our overall objective was to determine whether the conditions cited in the GAO
report were corrected and controls were put in place by the Neighborhood Legal
Services Program of the District of Columbia (grantee) to detect or prevent
similar situations from recurring. In addition, we evaluated other selected
financial and administrative areas relating to the GAO findings and tested the
related controls to ensure that expenditures were adequately supported and
allowed under the LSC Act and regulations.


                        SCOPE AND METHODOLOGY

To accomplish our objective we reviewed controls over the client intake process,
employee benefits and reimbursements, disbursements, and internal
managemenffbudgeting. To obtain an understanding of the internal control over
these areas, we reviewed grantee policies and procedures, including any
manuals, guidelines, memoranda, and directives setting forth current grantee
practices. We interviewed grantee officials to obtain an understanding of the
internal control framework and interviewed grantee management and staff as to
their knowledge and understanding of the processes in place.

We primarily conducted fieldwork at the grantee's central administrative office.
To test for the appropriateness of expenditures and the existence of adequate
supporting documentation, we reviewed disbursements from a judgmentally
selected sample of employee and vendor files. To assess the appropriateness of
grantee expenditures, we reviewed invoices, vendor lists, and general ledger
details. The appropriateness of grantee expenditures was based on grant
agreements, applicable laws and regulations, and LSC policy guidance. Our
grantee reviews were limited in scope and were not sufficient for expressing an
opinion on the entire system of grantee internal controls or compliance.

The on-site fieldwork for Neighborhood Legal Service Program of the District of
Columbia, was conducted from March 3, 2008 through March 7, 2008. A follow-
up visit was conducted June 24, 2008 to verify actions the grantee took to
address issues identified during the site visit in March. Documents reviewed for
the March site visit pertained to the period January 1, 2007 through February 29,
2008, the documents reviewed for the follow-up visit were through June 24,
2008. Our work was conducted at the grantee's site and at LSC headquarters in
Washington, DC.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.


                           OVERALL EVALUATION

Grantee management had taken appropriate actions to address an issue raised
by GAO dealing with the lack of supporting documentation for payments.
Disbursements were adequately supported and allowable, and allocations to LSC
were proper. Also, internal controls over the client intake process, employee
benefits       and     reimbursements,       disbursements,      and     internal
managementlbudgeting were operating in a manner expected to ensure
compliance with the LSC Act and regulations. However, we did note one policy
and three procedures where internal controls could be strengthened.
Specifically, the grantee did not have a policy addressing salary advances. The
grantee also did not have procedures in place to: (I)   document adjustments to
the accounting records; (2) control significant dollar value purchases; and
(3) review and approve the Executive Director's travel vouchers. Subsequent to
our March site visit and verified during our follow-up visit, the grantee had taken
action to address some of the deficiencies identified.


                              RESULTS OF AUDIT

Supporting Documentation for Payments

Our review of 57 judgmentally selected disbursements, valued at $229,360
disclosed that all disbursements were adequately supported, allowable, and
properly allocated. The disbursements in our sample covered the period January
1,2007 through February 29, 2008.


Internal Control Review of Selected Areas

Our review of the internal controls over client intake, budgeting, internal
reporting, disbursements, and cost allocation processes revealed that the
controls are operating in a manner expected to ensure compliance with the LSC
Act and regulations. We did note one policy and three procedures where internal
controls needed to be strengthened and are detailed below.


Policy on Salary Advances

The grantee provided a salary advance to an employee in 2007, but the grantee
has no policy on granting salary advances. The advance was documented as to
the amount advanced, the repayment terms, the employee's acceptance of the
terms, and approval by the Executive Director, and was repaid in accordance
with the terms of the agreement. While the Executive Director and the acting
Controller both stated concerns about salary advances becoming a common
practice, the grantee, by allowing an advance, has opened an issue that it needs
to formally address as an organizational policy. Without a policy, the grantee
could be open to questions of equitable treatment of its employees, and whether
its funds are adequately controlled and properly used.

Audit Comment. During the June 24, 2008 visit, the Executive Director provided
us with a policy on salary advances that the Board of Directors approved on April
14, 2008. The policy limits advances to extreme hardship, and requires the
advance agreement be signed by the employee and Executive Director, be
repaid through payroll deduction, and be repaid by the end of the fiscal year.
Since we believe this policy adequately addresses our concerns no
recommendation is necessary and the finding is considered closed.
Grantee Comment and Action: The Executive Director stated that "NLSP
accepts this recommet'tdation. Although NLSP did not have a written policy on
salary advances, standards were followed. The salary advance was a result of
hardship and paid with Non-LSC funds. The salary advance is the only one
given during the current Executive Director's tenure." The Executive Director
further stated that "The Board of Directors approved a policy on April 14,2008."


Additional Approval for Significant Dollar Value Purchases

Our review of transactions and the grantee's accounting procedures manual,
noted that the Executive Director has the authority to approve expenditures,
select vendors and award contracts without oversight, and is the only signer on
all checks and controls the grantee's check card. We believe this concentration
of authority is an internal control weakness, and that an approval in addition to
the Executive Director's should be instituted for significant purchases, such as
those over $5,000. The Executive Director stated that other staff members
already are part of the internal controls in terms of ordering, receiving and
processing payments, and that she does not have sole control over the purchase
and payment process. Nonetheless, we believe that an additional authorizer for
significant dollar value purchases would better ensure fiscal responsibility with
regard to the appropriateness of those purchases.

Audit Comment. During our June 24, 2008 visit. the Executive Director provided
us a policy approved by the Board of Directors that for any payment equal to or
above $10,000, excluding rental payments previously approved by the board, a
second signature is required. Since we believe this policy adequately address
our concerns, no recommendation is necessary and the finding is considered
closed.

Grantee Comment and Action: The Executive Director stated that "NLSP
accepts this recommendation," and further stated "The Board of Directors
approved a policy that for any payment equal to or above $10,000, excluding
rental payments previously approved by the board, a second signature is
required."


Independent Review and Approval of the Executive Director's Travel
Vouchers

The grantee does not have a procedure in place for an independent review and
approval of the Executive Director's travel vouchers. An independent review and
approval better ensures that its Executive Director's travel expenses are
reasonable, supported, and in accordance with the grantee's travel policies.
Audit Comment. Subsequent to our June 24, 2008 visit, the Executive Director
provided us with a copy of the grantee's revised Accounting Procedures Manual
which included a procedure whereby a second signature is required to authorize
reimbursement of the Executive Director's expenses. Since we believe this
policy adequately address our concerns, no recommendation is necessary and
the finding is considered closed.

Grantee Comment and Action: The Executive Director stated that "NLSP
accepts this recommendation," and further stated that "NLSP's revised
Accounting Procedures Manual includes a procedure whereby a second
signature is required to authorize reimbursement of the Executive Director's
expenses."


Documenting Adjustments to Accounting Transactions

During our review of accounting transactions we attempted to verify the accuracy
of reallocations. While we determined that the reallocations were correctly
recorded, we noted that the documentation supporting the reallocations was
missing. The Executive Director stated that she documents the reallocations and
provides the information to the accountant to make the necessary adjustments.
The accountant acknowledged receiving the documentation from the Executive
Director before making the adjustments, but that she did could not find the
documentation for us to review. Creating and retaining accounting adjustment
documentation is an important internal control, and the Executive Director and
acting Controller agreed.

Recommendation 1. The Executive Director should ensure that adjustments to
the accounting records are documented and that the documentation is retained in
accordance with sound accounting procedures.

Grantee Comment and Action: The Executive Director stated that "NLSP has
strengthened its procedures so that all changes are attached to the original
documents." Further, the Executive Director stated that "Subsequent to the
receipt of the Inspector General draft report; this procedure was added to the
revised Accounting Procedures Manual to ensure that adjustments to the
accounting records are documented and that the documentation is retained in
accordance with sound accounting procedures."


     OFFICE OF INSPECTOR GENERAL EVALUATION OF GRANTEEE
                    MANAGEMENT COMMENTS

The grantee has taken action to address and correct the deficiencies identified in
this report. Based on those actions, we consider the findings closed. The
grantee's comments are included in their entirety as Appendix I.
                                                                                                    APPENDIX I
                                NEIGHBORHOOD LEGAL SERVICES PROGRAM
                                            HEADQUARTERSINORTHEAST
                                             680 RHODE ISLAND AVENUE, N. E.
                                                WASHINGTON, 0.C. 20002
                                                     [2021 269-5100
                                                  [2021 832-1984 [FAXI




                                                    July 28,2008


       Mr. Ronald D. Merryman
       Assistance Inspector General for Audit
       Legal Services Corporation
       Office of Inspector General
       3333 K Street, NW, 3rdFloor
       Washington, DC 20007-3522

       Dear Mr. Merryman:

       Enclosed for your review is NLSP's response to the draft report on the results of our audit on
       Selected Internal Controls at Neighborhood Legal Services.

       I appreciate the courtesy that the OIG staff extended to NLSP.

                                               Sincerely,


                                                                                           U
                                               Brenda Ford Harding


       Enclosure




NORTHWEST OFFICE: 701 FOURTH STREET. N.W. WASHINGTON. D.C. 20001 . Phone: (2021 682-2700 - Fax: E"221682-0588
SOUTHEAST OFFICE: 3101 MARTIN LUTHER KING AVENUE. S.E. WASHINGTON. O.C. 20032 . PHONE: c2021678-2000. FAX: c2021889-3374
                           LEGAL SERVICES CORPORATION
                           OFFICE OF INSPECTOR GENERAL

                         MANAGEMENT RESPONSE TO
                   REPORT ON SELECTED INTERNAL CONTROLS-

NEIGHBORHOOD LEGAL SERVICES PROGAM OF THE DISTRICT OF COLUMBIA


NLSP'S RESPONSE TO RESULTS OF AUDIT

      NLSP appreciates the Office of Inspector General providing NLSP with
recommendations where internal controls could be strengthened. NLSP has accepted all of the
recommendations. NLSP's comments and actions taken, if any, are as follows:

Policv on Salary Advances:

Comment: NLSP accepts this recommendation. Although NLSP did not have a written policy on
salary advances, standards were followed. The salary advance was a result of hardship and paid
with Non-LSC funds. The salary advance was the only one given during the current Executive
Director's tenure.

Action: The Board of Directors approved a policy on April 14,2008. No further action will be
taken.

Additional Approval for Significant Dollars Value Purchases:

Comment: NLSP accepts this recommendation.

Action: The Board of Directors approved a policy that for any payment equal to or above
$10,000, excluding rental payments previously approved by the board, a second signature is
required. No further action will be taken.

Independent Review and Approval of the Executive Director's Travel Vouchers

Comment: NLSP accepts this recommendation.

Action: NLSP's revised Accounting Procedures Manual includes a procedure whereby a second
signature is required to authorize reimbursement of the Executive Director's expenses. No
further action will be taken.

document in^ Adiustments to Accounting Transactions

Comment: NLSP has strengthened its procedures so that all changes are attached to the original
documents.
Action: Subsequent to the receipt of the Inspector General draft report; this procedure was added
to the revised Accounting Procedures Manual to ensure that adjustments to the accounting
records are documented and that the documentation is retained in accordance with sound
accounting procedures. No further action will be taken.
